No.

IN THE
SUPREME COURT OF THE UNITED STATES

BILLY JOE WOLFE, JR., - PETITIONER
VS.
STATE OF ARKANSAS - RESPONDENT

PROOF OF SERVICE
I,

Billy

Joe

Wolfe, Jr., do swear or declare that on this date,
\
, 2021, as required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PRESEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
I declare under penalty of peijury that the foregoing is true and correct.

Executed on

5- 2 A

, 2021

Blifu IaJoIPc i)£.
Billy Joe Wolfe, Jr.,.DOC.#404414

10

